Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Inpatient Hospital Claims Billed as Family Planning Under New Jersey's Medicaid Program
August 11, 2008 | Audit A-02-06-01020
Executive Summary
New Jersey improperly received Federal Medicaid reimbursement for family planning claims because the State's electronic Medicaid claims system did not identify all claims for which a family planning service was performed with a non-family-planning procedure during a single inpatient hospital stay and because some hospitals did not properly complete sterilization consent forms.  As a result, the State improperly received $163,000 in Federal Medicaid funds.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS